        We recently examined eight BIA contract actions reported in the August 26, 2009
Financial and Activity report. We found one contract (SMFOOO9006) in the report was not
posted on FPDS-NG. Of the seven other actions, none listed the TAS or the Bureau Project
Identification Number in the “Description of Requirement” field of FPDS-NG.

       We informed a BIA contracting officer that one of his actions was missing the TAS
number. He responded by revising the “Description of Requirement” field in FPDS-NG, but
incorrectly formatted the TAS number. We also discussed the need to use proper TAS numbers
with a BIA official, who indicated that contracting officers were notified of the requirement
during regularly scheduled teleconference meetings. The official was unsure why the numbers
were not being entered correctly in FPDS-NG.

Recommendations

We recommend that BIA:

    1)	 Determine the status of contract action (SMFOOO9006) and, if appropriate, ensure it is
        entered into FPDS-NG with all required information.

    2) Ensure properly formatted TAS numbers and Bureau Project Identification Numbers are
       entered in the “Description of Requirement” field of FPDS-NG for all contract actions.

cc: 	   Deputy Secretary, Department of the Interior
        Assistant Secretary – Policy, Management and Budget
        Director, Office of Acquisition and Property Management
        Director, Office of Financial Management
        Departmental GAO/OIG Audit Liaison
        Audit Liaison, Office of the Secretary
        Recovery Coordinator, Bureau of Indian Affairs
        Contracting Officer, Bureau of Indian Affairs
        Director Office of Acquisition and Property Management - Indian Affairs




                                                                                                 2  
     
          



                                                     


                       Report Fraud, Waste, and                                        
                          
                           Mismanagement
                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
